     DISPOSITION OF INSURANCE ALLOTMENT PAYMENTS



Report No. D-2001-147                          June 21, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
DFAS-CL               Defense Finance and Accounting Service Cleveland
DFAS-DE               Defense Finance and Accounting Service Denver
DFAS-IN               Defense Finance and Accounting Service Indianapolis
DFAS-KC               Defense Finance and Accounting Service Kansas City
                       Office of the Inspector General, DoD
Report No. D-2001-147                                                     June 21, 2001
  (Project No. D2001LF-0010)

                Disposition of Insurance Allotment Payments

                               Executive Summary

Introduction. This audit was requested by the Under Secretary of Defense for
Personnel and Readiness. The request was prompted by action taken by the Florida
Department of Insurance against two life insurance companies that had received large
numbers of insurance allotments from Service members through their servicing Defense
Finance and Accounting Service (DFAS) sites. The insurance companies were required
to return or escheat $4.65 million that they had received over a 20-year period for
canceled or non-existing insurance policies.

The DoD military pay system includes an allotment process that permits active duty and
retired Service members to direct a portion of their pay to third parties. Payments for
life, health, and other insurance premiums are valid allotments.

According to data for July through September 2000, DFAS distributed about
$25 million each month for approximately 350,000 insurance allotments. Although
more than 400 insurance companies received allotments from DFAS during that period,
29 companies received more than 80 percent of the insurance allotment funds.

Allotment payments are sent to insurance companies by DFAS with a list of the
individuals for whom the allotments apply. The insurance companies compare the list
against their account records to identify “unmatched allotments.” Unmatched
allotments are those allotments received by an insurance company for which the
company does not have an insurance policy in effect or pending. Unmatched allotments
can be further divided into two major types—allotments for canceled insurance policies
and allotments for which the company has no record of a past, present, or pending
relationship with the payer, also known as non-existing insurance policies.

Objectives. The overall objective of the audit was to evaluate the procedures used by
insurance companies for disposing of or returning to Service members allotment
payments for canceled or non-existing insurance policies. In addition, we reviewed
DFAS procedures for establishing, monitoring, and stopping insurance allotments. We
also reviewed the adequacy of the management control programs at the DFAS sites, as
they applied to processing returned allotments.

Results. The seven insurance companies included in our review had procedures in
place to identify and return allotments for canceled or non-existing policies. The
insurance companies attempted to return allotment funds either directly to the Service
members or to DFAS.

The four DFAS sites did not consistently process requests from insurance companies to
stop insurance allotments. In addition, one DFAS site would not accept returned
allotments from insurance companies. As a result, incorrect allotments may continue
for canceled and non-existing insurance policies, Service members’ insurance coverage
may be adversely affected, and Service members may not receive refunds in a timely
manner. We could not quantify the number of incorrect allotments issued, because
insurance companies do not send all incorrect allotments back to DFAS. However,
based on the estimates of the insurance companies visited and our limited review of
their documentation, we believe the number of incorrect allotments is relatively small—
less than 1 percent of all allotments. However, despite the small percentage, the
problem should be corrected because it involves Service members’ pay and potentially
their beneficiaries’ entitlements. For details on the audit results, see the Finding
section of the report. See Appendix A for a discussion of our review of the
management control programs.

Summary of Recommendations. We recommend that the Director, DFAS, in
coordination with the Under Secretary of Defense (Comptroller), issue standard
procedural guidance to the DFAS sites requiring them to stop incorrect insurance
allotments when a properly documented request is received from an insurance
company, requiring them to accept returned allotments from insurance companies, and
prohibiting them from sending returned allotments back to insurance companies. In
addition, we recommend that the Director provide guidance to insurance companies that
outlines the procedural requirements, including timelines, for requesting that allotments
be stopped and for returning allotments to DFAS.

Management Comments. The Director, DFAS, concurred with the recommendations.
The Director agreed to issue standardized guidance requiring DFAS sites to stop
allotments when a properly documented request is received from an insurance company
and to accept and process returned allotment payments. DFAS also agreed to establish
procedures for returning allotments and to notify companies of the new procedures in
October 2001. DFAS stated that it would also establish a 15-day time period for
accepting returned allotments. Although not required to comment, the Deputy Under
Secretary of Defense (Program Integration) reviewed the draft report and concurred
with the finding and recommendations. See the Finding section for a discussion of
management comments and the Management Comments section for the complete text of
the comments.

Audit Response. The DFAS comments were partially responsive to the
recommendations. DFAS did not comment on the recommendation to prohibit DFAS
sites from sending returned allotments back to insurance companies. Although DFAS
did not comment on the recommendation, a DFAS representative stated that she
believed the problem would be solved by the prompt return of allotments by insurance
companies. However, the insurance companies we visited generally returned
unmatched allotments between 30 and 90 days. Accordingly, we request that DFAS
provide comments on the recommendation. Specifically, DFAS should explain how it
will prevent DFAS sites from sending returned allotments back to insurance companies,
especially if the insurance companies do not meet the 15-day requirement. We request
that the Director, DFAS, provide additional comments by August 20, 2001.




                                           ii
Table of Contents

Executive Summary                                                            i


Introduction
     Background                                                              1
     Objectives                                                              3
     Results of Review                                                       3

Finding
     Disposition of Unmatched Allotment Payments                             4

Appendixes
     A. Audit Process
          Scope and Methodology                                             10
          Management Control Program Review                                 12
          Prior Coverage                                                    13
     B. Procedures Used by Life Insurance Companies to Process Allotments   14
     C. Report Distribution                                                 17

Management Comments
     Defense Finance and Accounting Service                                 19
     Deputy Under Secretary of Defense (Program Integration)                20
Background
            This audit was requested by the Under Secretary of Defense for Personnel and
            Readiness. The request was prompted by action taken by the Florida Department
            of Insurance against two life insurance companies that had received large
            numbers of insurance allotments from Service members through their servicing
            Defense Finance and Accounting Service (DFAS) sites. The companies,
            American Fidelity Life Insurance Company and Trans World Assurance
            Company, had not appropriately returned allotments that could not be applied to
            current policies.1

            The Allotment System. The DoD military pay system includes an allotment
            process that permits active duty and retired Service members to direct a portion
            of their pay to third parties. Payments for life, health, and other insurance
            premiums are valid allotments.

            Defense Finance and Accounting Service. DFAS is responsible for processing
            and distributing active duty and retirees’ military pay and allotments. The pay
            for each Service is handled by a different DFAS site. DFAS Indianapolis
            (DFAS-IN) handles Army pay; DFAS Cleveland (DFAS-CL) handles Navy pay;
            DFAS Denver (DFAS-DE) handles Air Force pay; and DFAS Kansas City
            (DFAS-KC) handles Marine Corps pay. DFAS-CL is also responsible for the
            pay of retirees from all the Services.

            Monthly Insurance Allotments. According to data obtained from DFAS for
            July through September 2000, DFAS distributed about $25 million each month
            for approximately 350,000 insurance allotments. More than 400 insurance
            companies received allotments from DFAS during that period. The exact
            number and amount of insurance allotments paid varies from month to month.
            In addition, because of the design of the allotment system, it is not possible to
            distinguish between allotments for life insurance and for other forms of
            insurance.

            Allotment Distribution. Although more than 400 insurance companies
            received insurance allotments for each of the 3 months, 29 companies received
            more than 80 percent of the insurance allotment funds. As the following table
            illustrates, the top 20 companies for each DFAS site received more than
            80 percent of the insurance allotment funds. For September 2000 allotments,
            the top 20 companies for each DFAS site were paid a total of $20.7 million,
            accounting for 83 percent of the $24.9 million paid for insurance allotments.




1
    In February 2000, the Florida Department of Insurance issued Consent Orders requiring that the two
    insurance companies return or escheat $4.65 million from allotments that the companies had received
    over a 20-year period for canceled or non-existing insurance policies. The Florida Department of
    Insurance found the companies had allowed erroneously received allotment funds to accumulate over
    two decades while making no substantial efforts to refund the money or otherwise resolve the situation.



                                                       1
                            September 2000 Insurance Allotments
                                Number of      Number of                                 Percent of
                                Insurance       Insurance    Total Dollars                Dollars
                Service       Companies Paid Allotments Paid (in millions)               to Top 20

                 Army                369                129,029            $9.11             83

                 Navy                320                 83,629              5.93            86

               Air Force             400                108,596              7.86            82

            Marine Corps             204                 25,282              2.04            82


           Processing Insurance Allotments. Service members start, stop, or change
           insurance allotments by completing a DD Form 2558, “Authorization to Start,
           Stop, or Change an Allotment,” and submitting it to their local finance office.
           In addition to personal identifying information, the Service member includes the
           name, address, and account number of the insurance company. Local finance
           office personnel verify the information on the form and insert the DFAS-
           assigned company code.2 Local finance office personnel then enter the data
           from the DD Form 2558 into the finance office’s computer system and the
           information is transmitted overnight to the Service’s DFAS site. The DFAS
           site’s computer system processes the transaction, implements the requested
           action, and notifies the local finance office that the transaction has been
           completed. The DFAS site also notifies the local finance office if the
           transaction cannot be processed.

           DFAS Allotment Payment Process. For companies receiving more than
           25 allotments per month, DFAS sends a blanket payment, either by electronic
           funds transfer or check, to a location designated by the insurance company,
           usually a financial institution. Simultaneously, the DFAS site sends a detailed
           list containing the Service member’s name, social security number, branch of
           Service, and amount for each allotment included in the blanket payment. The
           detailed list may be a magnetic tape, a computer file, or a hard-copy printout.

           Unmatched Allotments at Insurance Companies. The insurance companies
           compare the DFAS list against their account records to identify “unmatched
           allotments.” There is no universal definition for unmatched allotments;
           however, for purposes of this report, we considered unmatched allotments to be
           those allotments received by an insurance company for which the company does
           not have a current or pending insurance policy. Unmatched allotments can be
           further divided into two major types—allotments for canceled insurance policies
           and allotments for which the company has no record of a past, present, or
           pending relationship with the payer, also known as non-existing insurance
           policies.


2
    Because company codes are Service unique, each insurance company will have several company codes.



                                                    2
Objectives
     The overall objective of the audit was to evaluate the procedures used by
     insurance companies for disposing of or returning to Service members allotment
     payments for canceled or non-existing insurance policies. In addition, we
     reviewed DFAS procedures for establishing, monitoring, and stopping insurance
     allotments. We also reviewed the adequacy of the management control
     programs at the DFAS sites, as they applied to processing returned allotments.
     See Appendix A for a discussion of the audit scope and methodology, our
     review of the management control programs, and prior coverage related to the
     audit objectives.


Results of Review
     The seven insurance companies included in our review had procedures in place
     to identify and return allotments for canceled or non-existing policies. The
     insurance companies attempted to return allotment funds either directly to the
     Service members or to DFAS. We limited the insurance companies that we
     visited to four of the top 29 companies that had not returned insurance
     allotments to DFAS in calendar year 2000, the two companies that prompted the
     audit, and the recipient of the largest dollar amount of allotments from DFAS.
     See Appendix B for a discussion of the procedures used by insurance companies
     for processing allotment payments and identifying and returning unmatched
     allotments. See the Finding section of the report for the results of our review of
     DFAS procedures for processing allotments.




                                         3
           Disposition of Unmatched Allotment
           Payments
           The DFAS sites did not consistently process requests from insurance
           companies to stop insurance allotments. In addition, one DFAS site
           would not accept returned allotments from insurance companies. The
           inconsistencies in processing allotments occurred because there was no
           standardized guidance for stopping allotments or processing returned
           allotments from insurance companies. As a result, incorrect allotments
           may continue for canceled and non-existing insurance policies, Service
           members’ insurance coverage may be adversely affected, and Service
           members may not receive refunds in a timely manner.


Processing Insurance Allotments
    The four DFAS sites did not consistently process requests from insurance
    companies to stop insurance allotments. In addition, although returned
    allotments were accepted, processed, and properly credited to Service members’
    accounts at three of the four DFAS sites, the fourth DFAS site would not accept
    returned allotments from insurance companies.

    DFAS Policies and Procedures. The four DFAS sites developed the following
    local policies and procedures for processing allotments. The sites’ guidance
    addresses all allotments and is not specific to insurance allotments.

            DFAS Indianapolis. DFAS-IN did not have an official policy for
    stopping allotments or accepting returned allotments. However, it uses an
    undated “Remittance Team” standard operating procedure. The guidance,
    which includes a flowchart, outlines the steps to be taken for processing
    returned allotments and stopping allotments. The flowchart has a decision block
    that asks, “Did the company ask to have the allotment stopped?” If answered
    “yes,” the next steps are to stop the allotment and input the reason for stopping
    the allotment. However, DFAS-IN will not stop an allotment until the allotment
    payment has been returned three times. The final step is to credit the Service
    member’s account with the returned payment.

            DFAS Cleveland. DFAS-CL policy is outlined in the “Allotments”
    chapter under the “Pay Topics” section of the Navy training manual for the
    Defense Joint Military Pay System, as revised November 9, 2000. The manual
    states that when an allotment is returned, an attempt will be made to correct the
    address, reissue the allotment to the correct allottee, or cancel the allotment.
    The DFAS-CL guidance does not specifically address requests to stop allotments
    or the handling of allotment payments returned by insurance companies.
    DFAS-CL personnel explained that they only stop allotments after they receive
    approval from the Service member through his or her finance office. When an
    allotment is returned by an insurance company, the money is immediately
    credited to the Service member’s account.



                                        4
        DFAS Denver. The DFAS-DE guidance is DFAS-DE Manual 7073-1,
chapter 57, “Allotments of Pay,” January 15, 1998. The guidance provides that
a request from the allottee (the insurance company) to stop an allotment does not
require the signature of the Service member on a DD Form 2558. The guidance
states that the allottee’s request or the return of funds to DFAS-DE serves as
supporting documentation for stopping the allotment. Although the guidance
does not specify when the allotment will be stopped, the unofficial policy is to
stop the allotment only after receipt of three returned allotments from the
insurance company. The guidance states that when an allotment is returned, the
funds are credited to the Service member’s account and the allotment is
corrected or stopped, as appropriate.

         DFAS Kansas City. The DFAS-KC allotment guidance is DFAS-KC
Regulation 7220.45-R, chapter 2, “Authorized Allotments,” October 20, 2000.
However, the chapter does not address stopping allotments at the request of
insurance companies or accepting or processing returned allotments. When
DFAS-KC receives a returned allotment check from an insurance company with
a request to stop the allotment, DFAS-KC will immediately stop the allotment,
but will not accept the check. Instead, under procedures implemented in March
2000, DFAS-KC returns the check to the insurance company with notification
that it is the insurance company’s responsibility to locate the member and refund
the allotment directly.

Processing Returned Allotments. The three DFAS sites that accept returned
allotments use basically the same procedures, which are as follow.

    •   An insurance company sends a check to DFAS with a list identifying
        each Service member with an unmatched allotment by name, social
        security number, and allotment amount.

    •   A DFAS collections branch employee logs in receipt of the check,
        copies the check and any accompanying documentation, deposits the
        check, and forwards a collection voucher with the documentation to the
        military pay branch.

    •   The military pay branch credits the amounts on the collection voucher to
        the Service members’ accounts.

    •   Allotment funds are returned to the insurance company only if the
        military pay branch cannot find an active pay account or a current
        address for an individual who has left the Service.

Although DFAS-KC indicated that processing returned allotments was a
problem, none of the other three DFAS sites indicated that they had
encountered any significant problems accepting, crediting, or accounting for
returned allotments. To determine the level of effort required by a DFAS site
to locate an individual, we contacted an insurance company for the name and
social security number of a Service member for whom DFAS-KC had returned
a check. We entered the social security number into a DoD database and
obtained both the unit and personal mailing addresses in less than a minute.


                                    5
    We recognize that not every case can be so easily resolved. However, we
    believe the DFAS sites are in a better position than the insurance companies to
    resolve the difficult cases.

    Because the DFAS sites handle allotment stops and returns differently, insurance
    companies are unclear about DFAS procedures. Two of the companies we
    visited were not aware that DFAS would accept returned allotments and one did
    not know DFAS would stop allotments. One insurance company no longer
    returned allotments to DFAS because of concerns about the funds being credited
    to the Service members’ accounts. Further, one insurance company reported
    that DFAS had agreed to stop an allotment for a very small dollar amount but
    had refused to stop other allotments when requested.


DoD and DFAS Guidance
    The inconsistencies in processing allotments occurred because there was no
    standardized guidance for stopping allotments or processing returned allotments
    from insurance companies. Each DFAS site developed its own unique operating
    policies and procedures. In addition, there was no guidance provided to the
    insurance companies regarding the procedures they should follow to request that
    an allotment be stopped or to return an unmatched allotment payment to DFAS.

    DoD Allotment Guidance. The primary DoD guidance for allotment
    processing is DoD Regulation 7000.14-R, “DoD Financial Management
    Regulation,” volume 7A, chapters 41 and 42, dated February 2000. The
    Regulation provides guidance as to the types of allotments authorized, who may
    authorize allotments, what pay can be allotted, and time periods for allotments
    to be paid. However, the DoD guidance does not include procedures for
    stopping allotments or accepting returned allotments from companies, except in
    the event of the death of the allotment payer or the recipient.

    DFAS Guidance. Each DFAS site developed local guidance for processing
    both insurance company requests to stop allotments and returned allotments.
    However, some of the guidance is unofficial, and the guidance is not consistent
    among the DFAS sites. Further, the guidance does not adequately address what
    a DFAS site needs from the insurance companies regarding requests to stop
    allotments and regarding returned allotments.

    DoD-Wide Guidance Needed. DFAS should develop specific guidance that
    requires all DFAS sites to stop incorrect allotments when requested by insurance
    companies, if the request is properly documented and justified. Stopping
    incorrect allotments would help limit the number of allotments repeatedly
    returned to DFAS. DFAS should also issue guidance that requires all DFAS
    sites to accept returned allotments from insurance companies. Accepting
    returned allotments would help ensure that Service members receive their
    refunds. DFAS sites return refunds to the insurance company if they cannot
    readily locate the Service member. However, we believe that practice should
    stop because Service members have a better chance of getting a refund from
    DFAS than from an insurance company with which they do not have a policy.
    Further, DFAS should provide guidance to the insurance companies that outlines


                                       6
    the procedural requirements, including timelines, for returning allotments to
    DFAS. The insurance companies also reported that DFAS would not provide
    any written guidance on how to request that an allotment be stopped.
    Standardized guidance to the insurance companies would help them fix incorrect
    allotments and minimize delays in Service members’ receiving refunds.


Effect of DFAS Procedures
    As a result of the lack of standardized guidance, incorrect allotments may
    continue for canceled and non-existing insurance policies, Service members’
    insurance coverage may be adversely affected, and Service members may not
    receive refunds in a timely manner. We could not quantify the number of
    incorrect allotments issued, because insurance companies do not send all
    incorrect allotments back to DFAS. However, based on the estimates of the
    insurance companies visited and our limited review of their documentation, we
    believe the number of incorrect allotments is relatively small—less than
    1 percent of all allotments. However, despite the small percentage, the problem
    should be corrected because it involves Service members’ pay and potentially
    their beneficiaries’ entitlements.

    Allotments Continue. When DFAS continues to issue incorrect allotments,
    Service members may believe they have insurance coverage when they do not.
    For example, if a member applied for insurance with one company and the
    allotment went to another company, the member could, in fact, have no
    coverage. However, the member’s leave and earnings statement would indicate
    that he or she is paying for insurance. When DFAS stops the allotment, the
    member is notified on the leave and earnings statement and can take action to
    ensure insurance coverage. When the allotment is not stopped until three
    returned allotments are received, as done by two DFAS sites, the Service
    member may not be aware of the problem for several months.

    Some insurance companies reported receiving incorrect allotments for several
    years because neither the Service member nor the DFAS sites would correct the
    allotment at the insurance company’s request. DFAS-DE reported that it
    receives and acts on 10 to 15 requests per month from insurance companies to
    stop allotments. The DFAS-DE representative also stated that he had not
    received any negative feedback from Service members as a result of stopping an
    allotment.

    Timeliness of Refunds. The inconsistent DFAS procedures may delay or even
    prevent the receipt of refunds by Service members. Although the DFAS sites
    do not routinely track and summarize returned insurance allotments, at our
    request, two DFAS sites compiled summaries of the number of returned
    allotments for a 1-year period. DFAS-IN reported it received 765 refund
    checks from insurance companies in calendar year 2000, but could not identify
    the exact number of Service members affected. DFAS-KC reported that it
    received 190 refund checks in calendar year 1999 that affected 765 Marines.
    The data from DFAS-KC indicated that most of the refunds were returned
    allotments from insurance companies. Under the procedures implemented at
    DFAS-KC in March 2000, the returned allotments from insurance companies


                                       7
    would not have been accepted, unnecessarily delaying or preventing the Service
    members from receiving their money. The DFAS-KC procedures are
    counterproductive because some companies do not return allotments to a DFAS
    site if they can locate the Service member directly. As of March 22, 2001, one
    insurance company had already had DFAS-KC refuse to accept at least four
    returned allotments. Because that company only returns allotments to DFAS
    when it has had no prior contact with the payer, the Service members’ refunds
    have been unnecessarily delayed.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Finance and Accounting
    Service, in coordination with the Under Secretary of Defense (Comptroller),
    issue guidance to the Defense Finance and Accounting Service sites for
    processing allotments. At a minimum, the guidance should:

           a. Require the sites to stop insurance allotments for canceled or non-
    existing insurance policies when a properly documented request is received
    from an insurance company.

         b. Require the sites to accept returned allotments from insurance
    companies for canceled or non-existing insurance policies.

           c. Prohibit the sites from sending returned allotments back to the
    insurance companies.

    2. We recommend that the Director, Defense Finance and Accounting
    Service, provide guidance to all insurance companies that receive insurance
    allotments. The guidance should outline the procedural requirements,
    including timelines, for requesting that allotments be stopped and for
    returning allotments to the Defense Finance and Accounting Service sites.

    Defense Finance and Accounting Service Comments. DFAS concurred with
    Recommendation 1. DFAS stated that it would issue standard procedural
    guidance to DFAS sites requiring them to stop allotments when a properly
    documented request is received from an insurance company and requiring them
    to accept and process returned allotments. DFAS concurred with
    Recommendation 2. DFAS stated it would send notices to companies in
    October 2001 that any payment received by companies after October 2001 must
    be returned to DFAS within 15 business days after the date that it is received.
    Also, all identifying information (name, social security number, date, dollar
    amount, and account number) must accompany the returned item. DFAS stated
    that it will process the return as a refund to the member’s pay account, notify
    the member, and stop the allotment.

    Audit Response. The DFAS comments were partially responsive. DFAS did
    not comment on Recommendation 1.c. Although DFAS did not comment on
    this recommendation, a DFAS representative stated that she believed the


                                       8
problem of DFAS sites sending returned allotments back to insurance companies
would be solved by the prompt return of allotments by insurance companies.
However, as discussed in Appendix B, the insurance companies we visited
generally returned unmatched allotments between 30 and 90 days. Accordingly,
we request that DFAS provide comments on Recommendation 1.c. Specifically,
DFAS should explain how it will prevent DFAS sites from sending returned
allotments back to insurance companies, especially if the insurance companies
do not meet the 15-day requirement.

Deputy Under Secretary of Defense (Program Integration) Comments.
Although not required to comment, the Deputy Under Secretary reviewed the
draft report and concurred with the finding and recommendations.




                                  9
Appendix A. Audit Process

Scope and Methodology
           Work Performed. We reviewed allotment policies dated January 1998 through
           November 2000 issued by the Under Secretary of Defense (Comptroller), the
           Services, DFAS headquarters, and the DFAS sites. We also reviewed insurance
           allotment data for the 3-month period of July through September 2000 and the
           allotment data for one insurance company for October 2000, as provided by
           DFAS. We visited local Army, Air Force, and Marine Corps installation
           finance offices and the four DFAS sites responsible for active duty Service
           members’ pay. We also visited seven insurance companies that received
           allotments from DFAS.

           At each local finance office, we discussed and examined the local procedures for
           accepting and entering the data to start, stop, or change allotments. At each
           DFAS site, we discussed procedures and reviewed documentation for handling
           requests to stop allotments and for processing returned allotments. We also
           verified that returned allotments had been properly credited to the Service
           members’ accounts. At each DFAS site, we also examined documentation to
           determine the names of insurance companies from which it received returned
           allotments during calendar year 2000.

           We limited our insurance company site visits based on the returned allotment
           information. As a result, we visited the following seven companies: two
           mutual aid associations that were among the top 20 recipients of allotments from
           two of the four DFAS sites;* two companies that received large numbers of
           allotments but which had not returned allotments to the DFAS sites in calendar
           year 2000; the insurance company that received the largest dollar amount in
           allotments; and the two insurance companies that prompted the audit. The five
           insurance companies visited were among the top 20 recipients of insurance
           allotments from each DFAS site. In the context of this report, we included the
           two mutual aid associations when referring to insurance companies.

           In September 2000, the seven companies we visited received a total of
           $11.65 million, or 46.7 percent, of insurance allotment funds from DFAS. At
           each insurance company, we discussed the policies and procedures for
           identifying and returning allotments for canceled or non-existing insurance
           policies. We also discussed and examined error reports, suspense records, and
           other company-unique documents related to the audit objective. At one
           company we used random sampling to verify that allotments provided by DFAS
           had been properly credited to Service members’ accounts.




*
    One of the associations supports the Army and Air Force and the other supports the Navy and Marine
    Corps.



                                                    10
Scope Limitation. We did not visit a statistically valid sample of all insurance
companies and only verified that allotment payments were being properly
applied to Service members’ accounts at one insurance company. Therefore, we
cannot project or generalize the results. We did not quantify the number or
dollar value of incorrect allotments at each insurance company because each
company defines and categorizes incorrect allotments differently.

DoD-Wide Corporate Level Government Performance and Results Act
(GPRA) Coverage. In response to the GPRA, the Secretary of Defense
annually establishes DoD-wide corporate level goals, subordinate performance
goals, and performance measures. This report pertains to achievement of the
following corporate level goal and subordinate performance goal.

       FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
       future by pursuing a focused modernization effort that maintains U.S.
       qualitative superiority in key warfighting capabilities. Transform the
       force by exploiting the Revolution in Military Affairs, and reengineer the
       Department to achieve a 21st century infrastructure. (01-DoD-2)
       FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
       and information management. (01-DoD-2.5)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following Financial Management
functional area objective and goal.

       Objective: Reengineer business practices. Goal: Revise regulations
       and procedures to simplify, standardize, and improve financial
       management requirements. (FM-2.2)

High Risk Area. The General Accounting Office has identified several high
risk areas in the DoD. This report provides coverage of the DoD Financial
Management high risk area.
Use of Computer-Processed Data. Our reliance on computer-processed data
was limited to identifying insurance companies that received allotments and the
number and dollar amounts received by each company for the period of July
through September 2000. In addition, we received from DFAS detailed
allotment data for one insurance company for October 2000. We did not
perform a formal reliability assessment of the DFAS systems that produced the
data. Because the sample data were only used to identify and rank insurance
companies, and no projections or conclusions are based on the data, data
reliability had no effect on the audit finding.

Use of Technical Assistance. Personnel in the Quantitative Methods Division,
Audit Followup and Technical Support Directorate, Office of the Assistant
Inspector General for Auditing, provided technical support for this audit.
Operations research analysts selected the samples of individual allotments to
track through the insurance company’s records to verify the accuracy of account
postings from allotments.




                                   11
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from October 2000 through mid-April 2001 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary. Although we did our work in
    accordance with generally accepted Government auditing standards, we were
    unable to obtain an opinion on our system of quality control. The most recent
    external quality control review was withdrawn on March 15, 2001, and we will
    undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and at insurance companies. Further details are
    available upon request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of DFAS management controls over the processing of returned
    insurance allotments. Specifically, at each DFAS site, we reviewed
    management controls over receipt of returned allotments from insurance
    companies and crediting refunds to Service members’ accounts. We reviewed
    management’s self-evaluations applicable to those controls.

    Adequacy of Management Controls. We did not identify a material
    management control weakness for DFAS, as defined by DoD Instruction
    5010.40. However, we did identify a problem that needs to be corrected
    because it affects Service members’ pay and benefits. The DFAS management
    controls for establishing policies and procedures were not adequate to ensure
    that the DFAS sites uniformly stop incorrect allotments and accept returned
    allotments for canceled or non-existing insurance policies. Recommen-
    dation 1., if implemented, will clarify and standardize DFAS allotment
    procedures.

    Adequacy of Management’s Self-Evaluation. Officials at DFAS-DE and
    DFAS-KC identified allotment processing as part of an assessable unit.
    However, in their self-evaluations, DFAS-DE and DFAS-KC officials did not
    identify the weakness identified by the audit because their management control
    plans do not specifically address returned allotments. Officials at DFAS-CL and
    DFAS-IN did not identify the control weakness identified by the audit because
    they did not identify allotment processing as an assessable unit in their
    management control plans.




                                       12
Prior Coverage
    Inspector General, DoD, Report No. 99-106, “Commercial Life Insurance Sales
    Procedures in DoD,” March 10, 1999

    Deputy Under Secretary of Defense (Program Integration) Report, “Final
    Report Insurance Solicitation Practices on Department of Defense Installations,”
    May 15, 2000




                                       13
Appendix B. Procedures Used by Life Insurance
            Companies to Process Allotments
        The seven insurance companies visited had procedures for identifying and
        returning unmatched allotments. All of the insurance companies visited had
        some unmatched allotments. In addition, the 26 insurance companies ∗ that were
        the top 20 recipients of insurance allotments from DFAS-IN, DFAS-CL, and
        DFAS-DE all returned allotments for canceled or non-existing policies either
        directly to Service members or to a DFAS site in calendar year 2000.

        Identifying Unmatched Allotments. Although detailed procedures and
        terminology vary among insurance companies, all the companies we visited
        identified unmatched allotments in basically the same manner. Each company
        maintains their customer accounts on computer systems that identify
        policyholders by social security number. When the company receives the
        detailed allotment information from DFAS, the company matches the social
        security numbers on the detailed listings with social security numbers in its
        current account files and credits premiums, as appropriate. For companies
        receiving large numbers of allotments, the initial match is done through the
        computer systems. If the detailed listing from DFAS contains social security
        numbers that are not in the company’s current account files, an error or
        exception report is generated. The error report may also include cases where
        the social security number matches but the dollar amount of the allotment differs
        from the premium amount due according to the company’s files, generally
        referred to as mismatched allotments.

        Reconciling Unmatched and Mismatched Allotments. Each of the insurance
        companies visited had personnel responsible for reconciling unmatched and
        mismatched allotments, as identified by monthly error reports.

                Unmatched Allotments. For unmatched allotments, insurance company
        personnel check both the “pending” business files, to determine whether an
        application is pending, and the “history” files, to determine whether the payer
        has canceled a policy. Personnel also cross-check names and addresses and
        check for “near match” social security numbers. Insurance company personnel
        estimated that they resolve more than 90 percent of the unmatched allotments on
        the original error report through reconciliation procedures. The remaining
        allotments require further investigation or action either using credit report
        services or some other research method.

               Mismatched Allotments. Mismatched allotments can be either
        overpayments or underpayments of insurance policy premiums. For
        overpayments, the companies visited apply the appropriate amount to premiums
        and periodically return the excess to the Service member. For underpayments,
        the companies apply the amount received to the premium, creating an account

∗
 Three insurance companies of the 29 that constituted the top 20 companies were unique to the Marine
 Corps’ top 20. Marine Corps pay is handled by DFAS-KC. Because DFAS-KC did not accept returned
 allotments, we did not verify whether those three companies returned allotments to DFAS in 2000.



                                                14
shortage. Generally, the insurance companies visited do not contact the DFAS
sites to correct the problem. Instead, they notify the Service members of the
allotment mismatch and request that the members contact their finance offices to
correct the allotment amount.

Returning Unmatched Allotments. The insurance companies use various
procedures to return unmatched allotments to Service members. Of the
26 insurance companies that were the top 20 recipients of allotments from
DFAS-IN, DFAS-CL, and DFAS-DE, 22 had returned allotments to 1 or more
of the DFAS sites during calendar year 2000. The remaining four companies
(two mutual aid associations and two insurance companies) had refunded
unmatched allotments directly to the payers.

The seven insurance companies we visited provided the following information
concerning their returned allotment procedures.

    •   The insurance company that received the largest dollar amount for all
        insurance allotments refunds most overpayments and payments on
        canceled policies directly to the payers. If the company cannot find the
        payer within 90 days, the unmatched allotments are returned to DFAS.

    •   The two companies that prompted this audit return unmatched
        allotments to DFAS. Allotments for canceled policies are returned
        within 30 days and those for non-existing policies are returned within
        90 days. Additionally, the companies immediately refund overpayments
        directly to the Service members.

    •   One insurance company that had not returned allotments to DFAS in
        2000 attempts to refund all mismatched and unmatched allotments
        directly to the payers. The company stated it sends a small number of
        allotments back to DFAS about once a year, but had not done so in
        2000. A company official noted that his company had a small number
        of allotments that had not been returned. As of April 5, 2001, the
        company was holding $292.55 in suspense for an unmatched allotment
        that it continued to receive. The official stated that he would welcome
        clear guidance from DFAS on returning allotments.

    •   The two mutual aid associations refund unmatched allotments and
        overpayments directly to the Service members. Representatives of both
        mutual aid associations stated they were not aware that they could return
        allotments to DFAS. As of April 5, 2001, one mutual aid association
        reported that it had $870.55 in suspense for an unmatched allotment that
        began in December 2000. The other mutual aid association reported
        that it did not have any unmatched allotments that were more than
        90 days old.

    •   The remaining insurance company also refunds unmatched allotments
        directly to the Service members. A company representative stated the
        company had stopped returning allotments to DFAS in 1994 because of
        concerns about returned allotments being credited to the Service
        members’ accounts. As of April 5, 2001, the insurance company was
        holding $1,467 in suspense for unmatched allotments.


                                   15
The suspense account information was provided by the insurance companies and
was not validated by the audit team.

Locating Payers of Unmatched Allotments. The four companies that attempt
to refund all unmatched allotments to the Service members use various methods
to find a member’s address. One company refers the social security numbers
and names to its home office and its agents, two companies use commercial
locator services, and one company has in-house personnel who conduct the
searches. Any unmatched allotments not returned to either DFAS or a Service
member ultimately have to be escheated to the State, per State law. Insurance
companies try to refund as much money as possible of unmatched allotments to
the Service member either directly or through DFAS, rather than escheat the
funds.




                                  16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         18
Defense Finance and Accounting
Service Comments




                    19
Deputy Under Secretary of Defense
(Program Integration) Comments




                     20
Audit Team Members
   The Readiness and Logistics Support Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report. Personnel of the
   Office of the Inspector General, DoD, who contributed to the report are listed
   below.

   Shelton R. Young
   Michael A. Joseph
   Betsy Brilliant
   R. Thomas Briggs
   W. Sterling Malcolm
   Daniel S. Bowers
   Lusk F. Penn
   James Hartman
